<html>
<title> - TO APPLY COUNTERINSURGENCY TACTICS UNDER A COORDINATED AND TARGETED STRATEGY TO COMBAT THE TERRORIST INSURGENCY IN MEXICO WAGED BY TRANSNATIONAL CRIMINAL ORGANIZATIONS, AND FOR OTHER PURPOSES; AND TO WITHHOLD TWENTY PERCENT OF UNITED STATES ASSESSED AND VOLUNTARY CONTRIBUTIONS TO THE ORGANIZATION OF AMERICAN STATES (OAS) FOR EVERY PERMANENT COUNCIL MEETING THAT TAKES PLACE WHERE ARTICLE 20 OF THE INTER-AMERICAN CHARTER IS NOT INVOKED WITH REGARD TO VENEZUELA'S RECENT CONSTITUTIONAL REFORMS, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  TO APPLY COUNTERINSURGENCY TACTICS UNDER A COORDINATED AND TARGETED 
    STRATEGY TO COMBAT THE TERRORIST INSURGENCY IN MEXICO WAGED BY 
 TRANSNATIONAL CRIMINAL ORGANIZATIONS, AND FOR OTHER PURPOSES; AND TO 
    WITHHOLD TWENTY PERCENT OF UNITED STATES ASSESSED AND VOLUNTARY 
 CONTRIBUTIONS TO THE ORGANIZATION OF AMERICAN STATES (OAS) FOR EVERY 
  PERMANENT COUNCIL MEETING THAT TAKES PLACE WHERE ARTICLE 20 OF THE 
INTER-AMERICAN CHARTER IS NOT INVOKED WITH REGARD TO VENEZUELA'S RECENT 
             CONSTITUTIONAL REFORMS, AND FOR OTHER PURPOSES
=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON

                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 3401 and H.R. 2542

                               __________

                           DECEMBER 15, 2011

                               __________

                           Serial No. 112-115

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
72-103                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     CONNIE MACK, Florida, Chairman
MICHAEL T. McCAUL, Texas             ELIOT L. ENGEL, New York
JEAN SCHMIDT, Ohio                   ALBIO SIRES, New Jersey
DAVID RIVERA, Florida                ENI F.H. FALEOMAVAEGA, American 
CHRISTOPHER H. SMITH, New Jersey         Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 3401, To apply counterinsurgency tactics under a coordinated 
  and targeted strategy to combat the terrorist insurgency in 
  Mexico waged by transnational criminal organizations, and for 
  other purposes.................................................     2
H.R. 2542, To withhold twenty percent of United States assessed 
  and voluntary contributions to the Organization of American 
  States (OAS) for every permanent council meeting that takes 
  place where Article 20 of the Inter-American Charter is not 
  invoked with regard to Venezuela's recent constitutional 
  reforms, and for other purposes................................    22
  Amendment to H.R. 2542 offered by the Honorable David Rivera, a 
    Representative in Congress from the State of Florida.........    33

                                APPENDIX

Markup notice....................................................    40
Markup minutes...................................................    41
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on the Western 
  Hemisphere:
  Prepared statement on H.R. 3401................................    43
  Prepared statement on H.R. 2542................................    45


  TO APPLY COUNTERINSURGENCY TACTICS UNDER A COORDINATED AND TARGETED 
    STRATEGY TO COMBAT THE TERRORIST INSURGENCY IN MEXICO WAGED BY 
 TRANSNATIONAL CRIMINAL ORGANIZATIONS, AND FOR OTHER PURPOSES; AND TO 
    WITHHOLD TWENTY PERCENT OF UNITED STATES ASSESSED AND VOLUNTARY 
 CONTRIBUTIONS TO THE ORGANIZATION OF AMERICAN STATES (OAS) FOR EVERY 
  PERMANENT COUNCIL MEETING THAT TAKES PLACE WHERE ARTICLE 20 OF THE 
INTER-AMERICAN CHARTER IS NOT INVOKED WITH REGARD TO VENEZUELA'S RECENT 
             CONSTITUTIONAL REFORMS, AND FOR OTHER PURPOSES

                              ----------                              


                      THURSDAY, DECEMBER 15, 2011

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Connie Mack 
(chairman of the subcommittee) presiding.
    Mr. Mack. The subcommittee will come to order. We meet 
today to mark up two bills. Without objection, all members are 
able to insert remarks on today's measures into the record, 
should they choose to do so.
    Pursuant to notice, for purposes of a markup, I call up 
H.R. 3401, the Enhanced Border Security Act.
    Mr. Gately. H.R. 3401, to apply counterinsurgency tactics 
under a coordinated and targeted strategy to combat the 
terrorist insurgency in Mexico----
    [H.R. 3401 follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Mack. Without objection, the bill is considered as read 
and is open for amendment at any point. Before turning to the 
ranking member, I recognize myself briefly for opening remarks.
    The Enhanced Border Security Act draws our attention to a 
serious problem that requires immediate action. I have held two 
hearings in this subcommittee on the topic of Mexico and have 
yet to see an increase in U.S. agency coordination or a 
substantial shift in approach. I drafted this legislation to 
ensure that action is taken to secure our border, stop 
transnational criminal activity in the United States, and 
secure the role of the state in Mexico.
    A terrorist insurgency is being waged along our southern 
border--the operations across Mexico and Central America--as 
well as in over 1,000 U.S. cities. Many of the 40,000 people 
killed since 2006 have died brutal, public deaths. The term 
``terrorist insurgency'' may be strong, but it is based upon 
unchallenged facts.
    President Calderon identified recent activities perpetrated 
by drug traffickers--the Zetas--as ``an act of terrorism.'' 
Last week he outlined insurgent tactics taking place in Mexico 
stating, ``Crime now also constitutes an open threat to 
democracy. The glaring interference of criminals in the 
electoral process is a new and worrying development.''
    The U.S. State Department has also publicly verified that 
terrorists and insurgent tactics are being employed in Mexico. 
Drug traffickers and criminal organizations have combined 
efforts to work across borders, unravel government structures, 
and make large profits from diverse, illegal activity. The 
near-term result: Schools, media, and candidates all controlled 
by criminal organizations. In other words: Total anarchy.
    Let me reiterate. These transnational criminal 
organizations are engaged in a protracted use of irregular 
warfare and extreme violence to influence public opinion and to 
undermine government control in order to increase their own 
control. This is a terrorist insurgency.
    Meanwhile, the State Department is leading the charge of 
U.S.-Mexico security policy through the Merida Initiative, and 
they are failing. Merida has not and will not be able to 
address the pending terror we face. Mexican transnational 
criminal organizations have evolved to reflect traditional 
insurgence in the way that they, one, rely on external support 
and cross-border sanctuaries; two, require access to money to 
feed their ability to operate; and, three, control the hearts 
and minds in their territory.
    Therefore, we need a strategy that uses appropriate 
counterinsurgency tactics. First, secure the border through 
personnel, technology, and infrastructure. Second, stop 
criminal access to U.S. financial institutions. And, third, 
work with Mexico through integrated, counterinsurgency tactics 
to undermine the control of these criminal organizations.
    This is exactly what H.R. 3401 is calling for. Recent 
reports show success in integrating military counterinsurgency 
tactics with limited resources to bolster local law enforcement 
and curb drug-related criminal activities within a dangerous 
U.S. city.
    H.R. 3401, the Enhanced Border Security Act, is forcing the 
State Department to incorporate lessons learned and the 
expertise of all appropriate U.S. agencies to construct a 
strategy based on relevant counterinsurgency tactics to counter 
these illegal groups in Mexico, at the U.S. border, and within 
the United States.
    I urge all of my colleagues to work with me in taking the 
first steps toward developing a strategy that can succeed 
through the passage of the Enhanced Border Security Act.
    I am now pleased to recognize the ranking member to speak 
on the measure.
    Mr. Engel. Thank you very much, Mr. Chairman. Let me say 
that I agree with you that Mexicans are terrorized. If I were 
living in a place where gun battles were leaving scores of 
people dead, and previously safe streets were now hideouts for 
thugs and criminals, I would feel a sense of terror, too.
    I know you honestly care about the people in Mexico and are 
frustrated by how long it takes to stop the violence. So am I. 
But I must respectfully disagree, because there is a difference 
between acts which can cause terror and terrorist acts. And I 
think this is not simply a semantic distinction, and let me 
tell you why: Because if we get the cause of a disease wrong, 
our treatment will be wrong as well.
    Terrorism, by definition, occurs when someone uses violence 
to achieve a political goal. The narco criminals in Mexico have 
no political names. They are brutal outlaws who want money, but 
they don't want to throw out the government and take over. Nor 
do they hate the United States. Like many other terrorists, in 
a twisted sort of way, they probably like us. We buy their 
drugs and supply their weapons.
    So when the bill say there is a terrorist insurgency in 
Mexico, I have to respectfully disagree. Even though the bill 
redefines these terms to fit its counterinsurgency strategy, 
the plain meaning of the words can't be changed. We can say an 
apple is an orange, but it is still an apple. And we can say 
what is happening in Mexico is terrorism, but it is still narco 
crime--brutal, horrible, and murderous, I agree, but still 
cartel-driven narco crime.
    Mr. Chairman, I agree with you that the sad situation in 
Mexico has gone on too long and that the Mexican people, not to 
mention U.S. citizens in the border states, deserve to live 
their lives in peace. Plan Colombia was in place for a decade 
until its success started taking hold, and we have only started 
winding it down now.
    But we on this subcommittee--and you know this--in a 
bipartisan fashion have worked hard to promote the Merida 
Initiative. We have completed the period where the program 
delivered big dollar hardware, and we are now moving to what is 
called Merida 2.0, where we will focus more on training support 
for the judiciary and accountability.
    While the violence is still abundant in Mexico, the program 
is moving forward. It is not that we can't learn lessons from 
Afghanistan, Iraq, Colombia, or elsewhere, especially how to 
better integrate intelligence to speed up response times and 
how to improve accountability for human rights abuses.
    But I fear that this bill does something even more 
unfortunate. The Merida Initiative was built on a foundation of 
cooperation. It came from a bilateral process where the 
strategy and tactics were jointly created by Mexico and the 
United States. And something more important, even more 
important, came from the Merida Initiative.
    The distrust and prickliness which once pervaded the 
relationship between the U.S. and Mexico has been replaced by 
trust and cooperation. Obviously, it is a very good thing, and 
we have even seen this cooperation flow into other areas, 
including at the United Nations where Mexico and the United 
States have been working together more closely than ever 
before.
    So, Mr. Chairman, I feel this bill returns to the era where 
Congress dictates policy and expects Mexico to tow the line. I 
don't think it will be successful with that kind of attitude. I 
don't think it works that way. If we think that we need to 
switch to a counterinsurgency strategy, I think what we should 
do instead is roll up our sleeves, because it is going to take 
a lot of work to convince our partners in Mexico and at the 
State Department.
    Now, I have consulted with the Mexicans about this, and 
they feel as I do. Now, obviously, we can do what we want. We 
don't have to consult. But I think it is important to consult 
with a country like Mexico, because obviously what we are 
doing, what you want to see, what I want to see, what we all 
want to see on this committee is we want to see an end to the 
narco violence.
    We want to see more cooperation between the U.S. and 
Mexico, and we are not going to get if we try to ram it down 
their throats. We are only going to get it if we sit down 
together and figure out what the best strategy is.
    So I just don't think that this is the right direction. I 
think we need to work with our friends and allies, not force 
them. Let us convince our partners, not dictate. It is a worthy 
debate. And I know, Mr. Chairman, because you and I have 
discussed many, many things, your heart is certainly in the 
right place. But I respectfully disagree with the direction.
    So I thank you, and I yield back my time.
    Mr. Mack. I want to thank the ranking member, Mr. Engel, 
who we have got a great working relationship, and I appreciate 
your comments.
    I now recognize the gentleman from Texas for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman. I want to thank you 
for introducing this legislation. I am proud to be an original 
co-sponsor, because it really tells the situation like it is. 
This bill is not designed to hurt Mexico, but rather help 
Mexico. I believe that the drug cartels are acting within the 
Federal definition of ``terrorism,'' which basically says ``to 
intimidate a civilian population or government by extortion, 
kidnapping, or assassination.''
    That is precisely--precisely what the drug cartels do. They 
extort. They extorted teachers, a school, for money just last 
month. They decapitate people on a daily basis. They burn 
people alive. They throw people in acid baths. If that is not 
intimidation, if that is not terrorizing a civilian population, 
I don't know what is.
    And just recently we had Mexico's President Calderon saying 
in the headlines that the drug gangs threaten democracy. And in 
his words, not mine, he says that crime this--``These drug 
cartels represent a threat to the viability of the Mexican 
state and national democracy.'' That is a threat to the state. 
That is coercion and intimidation of a government, against a 
government.
    And in Mr. Calderon's words he says, ``The glaring 
interference of criminals in the electoral process is a new and 
worrying development. No political party should remain silent 
about it. It is a threat that affects everyone, and we must 
all, without hesitation, move to stop it.'' A threat to the 
electoral process. No political party should remain silent.
    This is a threat to the state. It is a threat to the 
Mexican state. It is a threat to the civilian population in 
Mexico. And this bill, Mr. Chairman, which you have introduced 
and I strongly support, I think goes right to the heart of the 
problem.
    And since 2005, we know that 50,000 people--50,000 Mexican 
people--have been killed brutally at the hands of these drug 
cartels. More than the American deaths in Iraq and Afghanistan 
combined. And yet we are going to sit back and say that this 
is--these are just businessmen operating with mergers and 
acquisitions. They are just driven by profit.
    They are driven by profit, but they are also driven by evil 
and they terrorize the Mexican people, and they terrorize the 
state of Mexico. They are a direct threat, as Mr. Calderon 
said, to the democracy and the electoral process in Mexico. I 
don't think we can stand back blindly and not call it what it 
is.
    So, again, thank you for this bill--calling, defining the 
acts of the drug cartels precisely what they are, acts of 
terrorism. And with that, I yield back.
    Mr. Mack. I thank the gentleman, and I would now like to 
recognize the gentlelady Ms. Schmidt for 5 minutes.
    Ms. Schmidt. Thank you so much, Mr. Chairman, and thank 
you, Ranking Member, for this attention to this very important 
issue. And it is an issue of national security.
    As has been stated, the drug trafficking organization is 
out of control. Savage assaults, robberies, kidnappings, in 
addition to brutal and sadistic murders are occurring almost on 
a daily basis. According to the Mexican Government's own 
statistics, more than 34,500 murders have occurred in Mexico in 
the 4-year span between 2007 and 2010.
    Grupo Reforma, a Mexican media outlet, reported that 6,500 
killings took place in Mexico in 2009 as a direct result of 
criminal drug activity. In 2010, they did a whole lot better 
with 11,500 killings occurring in Mexico as a direct result of 
drug trafficking activity.
    According to Grupo Reforma, the number of drug trafficking 
murders that has occurred in Mexico between January 11 of this 
year and August 11 is over 8,600. As we can see, the trend 
continues to go up. Why has this occurred? I think it is 
because the question lies not in just the proliferation of the 
DTOs, but also in the TCOs or transnational criminal 
organizations.
    Our effort so far to combat this has been through the 
Merida Initiative. Over $1.5 billion in equipment and training 
for Mexico and Central America has gone to date, and yet I 
don't think it is working.
    The problem with the administration's new proposal, the 
Beyond Merida, is that it fails to recognize that today's drug 
cartels, being transnational criminal organizations, whose 
crimes now not only include robbery and kidnapping but human 
trafficking, money laundering, and murder. And as a result, the 
administration's new proposal, while containing some laudable 
objections, is incomplete and missing the important component 
of counterinsurgency strategy.
    Mr. Chairman, I applaud your efforts to address this 
missing component. H.R. 3401, the Enhanced Border Security Act, 
if passed, would strengthen our border with Mexico and target 
Mexican TCOs doing business and committing crime within the 
United States. It would provide the counterinsurgency strategy 
currently missing in our efforts to combat these Mexico TCOs, 
and I am very proud to support this legislation.
    I thank you, and I yield back.
    Mr. Mack. I thank the gentlelady. And hearing no 
amendments, the question now occurs on adoption of the bill.
    Mr. Engel. Mr. Chairman?
    Mr. Mack. Yes, sir.
    Mr. Engel. I am wondering if I could just make another 
brief statement about this bill. Let me move to strike the last 
word.
    Mr. Mack. The gentleman is recognized.
    Mr. Engel. Thank you, Mr. Chairman. I just wanted to quote 
from Bill Brownfield, whom we all have tremendous respect for, 
because what I see this bill doing, it essentially tears up the 
Merida Initiative and kind of moves in a different direction. 
And I am still of the belief that the Merida Initiative is the 
best way to continue to move forward.
    So I just want to just very briefly quote Secretary 
Brownfield, who is the Assistant Secretary, Bureau of National 
Narcotics and Law Enforcement Affairs. And he said, very 
briefly, ``There is no doubt in my mind, ladies and gentlemen, 
that the United States is better and safer today thanks to our 
support for the Merida Initiative.''
    And then he went on to say at our hearing, ``Mr. Chairman, 
the Merida Initiative was not engraved in stone. It is a living 
strategy that is modified, adjusted, and corrected, as 
circumstances change on the ground and we learn lessons.'' Some 
of those lessons came from the United States Congress and came 
from some members in this chamber.
    And then he went on to say, ``Mr. Chairman, there were two 
lessons we did not have to learn, because we already knew them. 
The first is that Merida is a cooperative agreement between the 
U.S. and Mexico, with the Government of Mexico in charge of all 
activities within their territory. If we do not work together 
with the Mexican Government, then we accomplish little for 
either the American or the Mexican people.''
    I just wanted to mention it, because I really do believe 
that we can achieve what you want to achieve and what I want to 
achieve and what we all here want to achieve, all of us, 
working within the Merida Initiative. And I don't believe that 
this bill is necessary.
    And then, finally, I want to just say, in terms of 
procedure, we don't have a quorum here. But I won't----
    Mr. Mack. We do have a quorum.
    Mr. Engel. Okay. But I was going to say, but I won't 
object. But I don't have to object, because members are here. 
Okay.
    Mr. Mack. I thank the gentleman. And let me just also note 
that Mexico also says that Merida is not enough, that it is too 
slow and not effective.
    Hearing no amendments, the question now occurs on the 
adoption of the bill. All those in favor say aye.
    All those opposed say no.
    In the opinion of the chair, the ayes have it. The bill is 
agreed to. And without objection, the motion to reconsider is 
laid on the table. Without objection, the bill will be reported 
favorably to the full committee, and the staff is directed to 
make any technical and conforming changes.
    I now call up H.R. 2542, to hold the Organization of 
American States, the OAS, accountable.
    [H.R. 2542 follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Mack. I recognize myself for opening remarks. I want to 
first make this clear from the start: H.R. 2542 does not defund 
the OAS. H.R. 2542 requires only that the OAS uphold its 
international commitments in order to receive U.S. taxpayer 
dollars. Under this legislation, every time the OAS has an 
opportunity to uphold freedom and democracy by enforcing its 
democratic charter, and decides not to, the U.S. will save 
approximately $11 million. If no action is taken to address 
individual member states' gross noncompliance with the OAS 
democratic charter, the United States will have saved $57 
million by the end of 2012.
    Like many of my colleagues, I prefer to have a functional 
and effective organization that upholds its commitments to 
democracy throughout our important region. However, the OAS has 
proven unable or unwilling to do so. The OAS should not 
continue to receive increased funding each year when it 
continuously fails to do its job.
    A meeting was held yesterday at the OAS to discuss this 
specific issue--the fact that there is a clause in the 
democratic charter, Article 20, designated to hold nations 
accountable for their anti-democratic actions. The consensus 
within the OAS is that Article 20 is not functioning. Prior to 
yesterday's meeting, the consensus was also that there was no 
need to amend the democratic charter.
    This is why H.R. 2542 is necessary. The OAS is unable to 
take concrete actions to fix its flaws without outside 
pressure. Within the past year, the OAS has failed to stand 
with the people of Venezuela and Nicaragua, while 2 years ago 
it was hypocritically punishing Honduras, within days of that 
country's decision to stand on the side of freedom.
    Yesterday in Venezuela, Chavez again displayed his control 
of the judiciary system, forcing a judge to remain under arrest 
for another 2 years just because the judge dared defy him in a 
routine ruing. And there is absolutely no excuse for a 
statement by Secretary General Insulza supporting the 
Nicaraguan dictator Daniel Ortega's shame election as a ``step 
forward--step toward--step forward for democracy.''
    While the OAS later withdrew the statement, the harm was 
already done. I shudder to think how much harm the OAS can 
cause during the Venezuela elections next year. The American 
taxpayer should not be expected to contribute almost 60 percent 
of the budget for an organization that works against the 
interests and fundamental principles of freedom and democracy.
    This legislation is necessary to force needed changes 
within the Organization of American States. If the OAS finds 
that it is unable to make itself effective, there remains no 
reason for its continued existence.
    I am now pleased to recognize the ranking member for him to 
speak on this measure. Mr. Engel is recognized.
    Mr. Engel. Thank you, Mr. Chairman. And let me first state 
the obvious, that you and I both know we agree on so many 
things. We both want to see more pressure brought on Hugo 
Chavez's authoritarian government. We both want to expand 
freedom in the hemisphere. We both want to expand prosperity in 
the Americas. And we both want to fight the narco criminals' 
brutality. It is bringing devastation from the southern U.S. 
and Mexico all the way down through Central America and the 
Caribbean and into the Andean region.
    But we both know that there will come a day when another 
tragedy will strike somewhere in the Americas. There will be 
another hurricane like the ones which have periodically 
devastated Central America or another earthquake like the one 
which struck Haiti. When that happens, I think we would both 
expect the OAS's Permanent Council to meet. Under this bill, if 
the Permanent Council meets to discuss how to deal with the 
tragedy in Haiti, but does not take up how Venezuela is 
violating the Inter-American Democratic Charter, we will 
withhold 20 percent of our contributions to the OAS.
    And if we take this a step further, after 9/11 the OAS 
Permanent Council met to condemn the terrorist attacks on the 
United States after 9/11 and passed a resolution to call upon 
governments to ``use all necessary and available means to 
pursue, capture, and punish those responsible for these 
attacks.''
    Mr. Chairman, I know you don't possibly mean this, but if 
the bill became law and the OAS Permanent Council condemned the 
attacks of 9/11 without calling for democracy in Venezuela, we 
would have to withhold 20 percent of their funding. So if we 
were ever attacked again, as we were on 9/11, and the OAS 
Permanent Council met to show that the hemisphere stands with 
the United States, but they didn't condemn Venezuela, we would 
have to withhold their funds. And that certainly doesn't make 
any sense to me.
    I continue to believe that the OAS, with all its problems, 
with all its flaws, is the best thing we have going, best thing 
we have to ensure democracy in the western hemisphere, best 
thing we have to ensure that the United States has a voice in 
the western hemisphere within an international organization.
    If we don't have the OAS, if the OAS were to go away 
tomorrow, what would we replace it with? Unisur, where the 
United States is really not a participant? Or this new group 
which excludes both the United States and Canada? I just think 
that punishing the OAS, hurting the OAS, is like cutting off 
our nose to spite our face. I don't think that it makes any 
sense whatsoever.
    The things that we think need to be strengthened at the OAS 
we should work with other countries to strengthen it. And I am 
the last one to make excuses for some of the things that have 
happened in the OAS. I think that there has been a coddling for 
too long of Chavez and some of the other governments that you 
know and I know, and we agree, are not the wave of the future 
but quite the opposite for the hemisphere.
    But I think, you know, the State Department Authorization 
Act, which the full committee took up 5 months ago, cut funding 
for OAS, cut it out. And I think that that was a very foolish 
thing to do. I think it is a counterproductive thing to do, and 
I think it is a thing that hurts U.S. interests. I think it 
hurts the interests, frankly, of the entire hemisphere.
    But I think especially it hurts U.S. interests, because we 
have influence at the OAS, and we have the ability to try to 
get other governments to see it our way or to agree with us. I 
think if you defund it, if you blow it up--and I understand 
that this language doesn't specifically do that, but it is in 
line with what we did as a full committee 5 months ago during 
the State Department authorization. It is hostile to the OAS.
    I don't have the hostility to the OAS. I think the OAS has 
been a very useful body, has been a positive body. They have 
made mistakes, and I disagree with it, and we should call them 
out when we disagree. But I think it serves the best interests 
of the entire western hemisphere and the best interests of the 
United States.
    And so I just don't think doing something like this is 
productive. I think it is counterproductive, and I think the 
examples I gave in terms of if they have a resolution that has 
nothing to do with Venezuela, and they don't take up how 
Venezuela is violating the Inter-American Democratic Charter, 
we would have to withhold 20 percent of our contributions to 
the OAS.
    I think that is like killing a fly with a sledgehammer, and 
I respectfully have to oppose this bill.
    Thank you.
    Mr. Mack. Again, I thank the gentleman, and now would like 
to recognize the gentleman from Texas for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman. Let me say that I 
support this bill, because it stands up to the dictatorship of 
Hugo Chavez and stands with freedom and democracy in Venezuela. 
This bill would withhold 20 percent of the United States' 
contributions to the OAS if they don't start implementing 
Article 20 of the Inter-American Charter to encourage democracy 
in Venezuela.
    Article 20 states that when an OAS member is acting in an 
anti-democratic way, the Secretary General may request the 
immediate assembly of the Permanent Council to enact diplomatic 
measures. That is what must be done, at the very least, in the 
case of Venezuela.
    Hugo Chavez has nationalized private industry, restricted 
freedoms of the press, neutralized the independence of the 
judicial branch. He has blocked political opponents by accusing 
them of crimes or putting them in jail. His government aids and 
abets the terrorist organization FARC, and in yesterday's 
Washington Times it reported that Venezuelan diplomats in 
Mexico have been working with Iranian officials to launch a 
cyber attack against the United States.
    If this isn't the definition of an anti-democratic regime, 
I don't know what is. And if this isn't the time for the OAS to 
act, I don't know when that time would be. We are on the side 
of right here, and we must act now to ensure that democracy 
isn't further stifled here in our hemisphere.
    So I urge my colleagues to support this legislation and 
send a message to these anti-democratic regimes that they will 
not be coddled by the OAS.
    With that, I yield back.
    Mr. Mack. And I thank the gentleman, and now I would like 
to recognize the gentlelady Ms. Schmidt for 5 minutes.
    Ms. Schmidt. Thank you so much, Mr. Chairman, for bringing 
up this very important issue. You know, Article 3 of the OAS 
democratic charter outlines respect for fundamental freedoms, 
including independent branches of government, and Chavez has 
violated this. Chavez's laws last year to restrict the 
legislature and efforts to control the judicial system are 
clear violations of the charter.
    Former Assistant Secretary of State Venezuela and Secretary 
General Miguel Insulza has recognized Venezuela's violation of 
the OAS democratic charter. Even President Obama said that 
Chavez ``is subverting the will of the Venezuelan people.''
    The State Department has requested almost $60 million for 
OAS for Fiscal Year '12--an organization that will not even 
discuss its own members' violations of the charter. Sometimes 
you have to speak with a loud voice and say, ``Enough is 
enough.''
    Sixty million dollars for a broken, ineffective 
organization I believe is wasting our precious taxpayer 
dollars, and it is for that reason, Mr. Chairman, that I am 
going to vote yes on this very important initiative.
    Mr. Mack. Thank you very much. Anyone else wish to speak on 
this?
    Mr. Engel. Mr. Chairman, I move to strike the last word.
    Mr. Mack. The gentleman is recognized.
    Mr. Engel. Thank you, Mr. Chairman. Again, I want to make a 
point that I made before. I think all members would agree that 
the OAS is not a perfect institution. Neither are we. But, 
frankly, the OAS is much better than the alternatives.
    I find it very hard to understand that precisely when Hugo 
Chavez--and you know and I know I am no fan of Hugo Chavez, and 
you and I feel the same way about him. But I find it hard to 
understand that precisely when Chavez is setting up an 
alternative organization in the Americas called the CELAC, 
which excludes the United States but includes Cuba, we are 
considering a bill to undercut the OAS, where the U.S. is a 
member and has influence and where Cuba is excluded.
    Even more, this bill would withhold funding for all parts 
of the OAS, including the Inter-American Court of Human Rights, 
which recently ruled against Chavez that opposition leader 
Leopoldo Lopez must be permitted to run for President, and the 
Inter-American Commission on Human Rights, which has criticized 
Chavez almost as much as we have.
    As I said, the OAS is not perfect, but I agree with former 
Ambassador Jaime Daremblum, a recent Republican witness at a 
full committee hearing, that we need a strengthen, reformed 
OAS, not an undermined, weakened one.
    In fact, contrary to what we see today, opposition to 
gutting the OAS is by bipartisan, and other leading Republicans 
have spoken out against destroying the OAS, too.
    Ambassador Bill Middendorf, a member of the Board of 
Trustees of the Heritage Foundation and the International 
Republican Institute said, and I am quoting him, ``I think it 
would be a tragedy if we just announced that we are getting rid 
of the OAS. I think there would be a lot of room for mischief 
from foreign countries, particularly China, which has already 
bought up everything down there anyway.''
    It is funny that he mentions China, because President Hu 
Jintao just sent a message to Chavez congratulating him on the 
founding of the CELAC. And we are further reminded by Ray 
Walser, a Heritage Foundation expert, who has testified in this 
committee many times that ``putting a dagger through the heart 
of the OAS'' is exactly what Hugo Chavez wants. According to 
Walser, that is why Chavez is pushing the CELAC as an 
alternative to the OAS, because it will be ``a permanent 
platform for anti-Americanism.''
    So if you are following this, I believe we are actually 
doing Chavez's bidding today. Chavez wants the OAS killed, and 
we are here to do it for him. So let me just say you know who 
else says no, that we shouldn't be doing this? The Venezuelan 
opposition to Chavez.
    In a recent letter to this committee, Venezuela's United 
Democratic Opposition wrote, ``Venezuela's democracy is in 
peril. In such a difficult context, the OAS is a key 
international organization. The cause of freedom and 
hemispheric security requires, more than ever, appropriate 
funding and support to the OAS from the United States and all 
its member states.''
    So the Venezuelan opposition, which wants to topple Chavez, 
says that we are doing the wrong thing here. So, Mr. Chairman, 
I agree that the OAS should speak out more when democracy is 
imperiled, especially in Venezuela. I agree with you. But let 
us not throw the baby out with the bath water. Let us not hand 
Chavez a victory by undercutting the OAS.
    Rather, let us work to improve the OAS by coordinating more 
closely with countries in the region and improving our 
diplomacy, but not by destroying the OAS simply because it is 
imperfect; not trying to starve it of funds because we don't 
like some of the things that are happening.
    So again, Mr. Chairman, I thank you for letting me speak 
again, but I am going to vote no on this bill. And I yield 
back.
    Mr. Mack. I thank the gentleman. Are there any amendments 
to this measure? The gentleman from Miami, Mr. Rivera.
    Mr. Rivera. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Mr. Mack. The clerk will report the amendment.
    Mr. Gately. Amendment to H.R. 2542 offered by Mr. Rivera of 
Florida. In Section 1----
    [The amendment offered by Mr. Rivera follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Mack. Without objection, the amendment is considered as 
read. I am pleased to recognize Mr. Rivera to explain his 
amendment.
    Mr. Rivera. Thank you very much, Mr. Chairman. And first of 
all, I wanted to say I very strongly support your efforts with 
this bill. And I actually believe the bill will strengthen the 
OAS and it will send the right message that the OAS member 
states and the OAS in general needs to adhere to its charter, 
or otherwise face consequences, and that U.S. funds are not 
unlimited.
    And they should know that we believe money needs to be 
spent wisely. Our duty is to the American taxpayer, first and 
foremost, not necessarily to any other country that may not 
like our discipline or our attempts to find fiscal discipline. 
So this should be a wakeup call to the OAS, and particularly 
those countries that are part of the issue of not adhering to 
the charter, such as Venezuela.
    This amendment will add Nicaragua to that list of 
countries, because Nicaragua recently has taken some very 
undemocratic actions. Its recent elections are a pure example 
of taking undemocratic actions. They have been violating their 
own constitution. Even in the implementation of those 
elections, there were many election violations and 
irregularities found in Nicaragua.
    So this amendment will add Nicaragua to the bill, with 
Venezuela, and make sure that the OAS charter is adhered to. 
And, if not, with the case of Nicaragua, along with Venezuela, 
OAS would lose the funding. So that is the amendment, Mr. 
Chairman.
    Mr. Mack. And I thank the gentleman from Miami.
    Unless there are other members who wish to strike the last 
word and speak briefly----
    Mr. Engel. Yes, Mr. Chairman.
    Mr. Mack. Yes, the gentleman is recognized.
    Mr. Engel. Thank you. I move to strike the last word. Thank 
you. Mr. Chairman, the gentleman from Florida is correct. The 
elections in Nicaragua were severely flawed. There was fraud in 
the balloting, and election observers were not permitted to do 
their job. However, here is where I disagree with the 
gentleman. I believe that the OAS did do its job as observers 
in Nicaragua and did it reasonably well.
    Prior to our recent hearing on Nicaragua, the head of the 
OAS election observer mission, Dante Caputo, briefed members 
about its observer mission in Nicaragua. He reported that there 
was substantial interference in the work of the OAS observers 
on the part of local voting board officials. In the OAS case, 
such interference even hindered a plan to conduct a quick count 
and perform other statistical analysis of the voting data.
    Mr. Caputo was clear about these violations by the 
Nicaraguan Government. He pulled no punches in describing how 
his observers were blocked from carrying out their roles. 
Because they were unable to carry and fulfill their duties and 
observe the election, the OAS told the world they would not 
certify the election in Nicaragua, essentially confirming the 
fraud which took place.
    As the gentleman from Florida may know, the Government of 
Nicaragua then attacked the OAS for holding that their election 
was poorly run and marked by election law violations.
    So, Mr. Chairman, I understand, and frankly agree with the 
gentleman from Florida--by the way, from Florida by way of New 
York, he used to be my constituent--that it might be good for 
the OAS Permanent Council to meet on this matter. I agree with 
the gentleman from Florida it would be good for the OAS 
Permanent Council to meet on this matter.
    But I think the world was informed by the OAS of the 
problems in this election, of the troubles in this election. 
The OAS was unwilling to certify the election, and that sent a 
clear signal about the fraud in the Nicaraguan election. But 
yet if we pass this bill, as amended by Mr. Rivera's amendment, 
we would withhold funding from the OAS election observer teams, 
the very ones which were critical of the Nicaraguan elections.
    So it really doesn't make much sense to me. I don't 
understand why we are doing this. I think that it was very 
clear, by what the OAS people said, that the elections in 
Nicaragua were fraudulent and flawed, and they said it. So I 
don't know why we are trying to hurt them. I don't understand 
it.
    So I urge my colleagues to vote no on the amendment, and I 
yield back the balance of my time.
    Mr. Mack. And I thank the gentleman. Does anyone else 
wish--seek time?
    Mr. Smith. Mr. Chairman?
    Mr. Mack. Yes, sir. The gentleman is recognized.
    Mr. Smith. I thank the chair. Let me just say briefly that 
I will be voting for the chairman's bill and for the amendment 
offered by my good friend Mr. Rivera. It is a conditional yes. 
I mean, the hope is that the OAS will finally, at long last, 
step up to its responsibilities to ensure democracy.
    You know, the Chavez dictatorship is enabled, perhaps 
unwittingly, because there are people within the OAS who care 
deeply about democracy and freedom and human rights But when 
there is no strong statement, when there is no invocation, as 
there ought to be, as Condoleezza Rice tried to do just a few 
years ago when she was Secretary of State, that kind of 
passivity, that kind of indifference enables dictatorship.
    And for the people of Venezuela who suffer under the 
cruelty of Chavez, when his money is used to purchase votes 
throughout all of the Americas, especially as elections come 
around, and his money is dropped in one place after another to 
enable other dictatorships to move forward, we have a very 
serious problem here.
    So I think the chairman--you know, we all know it is not 
likely that this legislation, at least right now, will become 
law, given the White House's view and given the difficulty of 
mustering 60 votes in the U.S. Senate for anything. I think 
this is a very important message center, and I applaud the 
chairman for being so tenacious in combating the dictatorship 
of Hugo Chavez and the other members of this committee. I know 
Eliot Engel cares deeply about it, but has a difference as to 
the modality that ought to be followed.
    And I think including Nicaragua--I will never forget back 
in the early 1980s visiting with Commandante Daniel Ortega, who 
was violating human rights with such impunity. Four of us went 
down and met with him. Three of us who drank the water he gave 
us got sick, parenthetically. Who knows if it was because of 
that. The one who didn't drink it did not get sick. But what he 
has done, his legacy of human rights violations, and then, you 
know, his most recent--which the Rivera amendment speaks to as 
to why he wants that included.
    So it is a conditional yes. You know, I think the OAS can 
serve a very valuable purpose, but it has to step up to the 
plate. It can't sit idly by. It can't be indifferent to what 
Chavez is doing.
    And, again, I think the chairman Connie Mack has said in 
this legislation, very clearly, it is a conditional--you know, 
we want them to be functional. We don't want them to go the way 
of the United Nations, where dictatorships routinely flaunt the 
process and enable the worst violators of human rights.
    And in this case, after Fidel Castro, it has to be Hugo 
Chavez who does terrible things to his own people. He is a 
cancer. He is a cancer on the people of Venezuela. He hurts 
people. He destroys people, he destroys institutions, and then 
he spreads, you know, that cancer throughout all of the 
Americas.
    The OAS can be a bulwark against that cancer. It has failed 
to do so. Hopefully, your message that you send with this 
legislation will enable them to find a stronger voice against 
this dictatorship.
    I yield to Mr. Rivera.
    Mr. Rivera. Thank you so much. Just a quick comment, and I 
very much appreciate the comments by my friend Mr. Engel. My 
amendment tries not so much to speak to the OAS's observer 
missions to Nicaragua, which I am sure they did a very good 
job, but my amendment speaks to the content and the substance 
of the bill, which is the lack of adherence to Article 3 of the 
OAS and with respect to the organization's actions or lack of 
action vis-a-vis Nicaragua and the recent elections as it 
pertains to Article 3, not so much the observer mission during 
the election.
    And I yield back.
    Mr. Mack. Anyone else seek time?
    [No response.]
    The question is on agreeing to the amendment offered by Mr. 
Rivera. All those in favor say aye.
    All those opposed say no.
    In the opinion of the chair, the ayes have it, and the 
amendment is agreed to.
    Hearing no other amendments, the question now occurs on 
adopting the bill as amended. All those in favor say aye.
    All those opposed say no.
    In the opinion of the chair, the ayes have it. The bill, as 
amended, is agreed to. And without objection, the motion to 
reconsider is laid on the table.
    Mr. Gallegly. Mr. Chairman, can we have a rollcall vote on 
that, please?
    Mr. Mack. A rollcall vote having been requested, the clerk 
will call the roll.
    Mr. Gately. Mr. Mack.
    Mr. Mack. Yes.
    Mr. Gately. Mr. Mack votes aye.
    Mr. McCaul.
    Mr. McCaul. Aye.
    Mr. Gately. Mr. McCaul votes aye.
    Ms. Schmidt.
    Ms. Schmidt. Aye.
    Mr. Gately. Ms. Schmidt votes aye.
    Mr. Rivera.
    Mr. Rivera. Aye.
    Mr. Gately. Mr. Rivera votes aye.
    Mr. Smith.
    Mr. Smith. Yes.
    Mr. Gately. Mr. Smith votes aye.
    Mr. Gallegly.
    Mr. Gallegly. Aye.
    Mr. Gately. Mr. Gallegly votes aye.
    Mr. Engel.
    Mr. Engel. No.
    Mr. Gately. Mr. Engel votes no.
    Mr. Sires.
    [No response.]
    Mr. Faleomavaega.
    [No response.]
    Mr. Payne.
    [No response.]
    Mr. Mack. Have all members been recorded?
    Mr. Gately. Yes.
    Mr. Mack. The clerk will report the vote.
    Mr. Gately. We have six ayes and one no.
    Mr. Mack. The ayes have it, and the question is agreed to.
    Without objection, the bill will be reported favorably to 
the full committee in the form of a single amendment in the 
nature of a substitute, incorporating the amendment adopted 
here today. And the staff is directed to make any technical and 
conforming changes.
    That concludes our business. And without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 12 o'clock p.m., the subcommittee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  <F-dash>\\a<star><loz><ellipse><ellipse>stat<box><acctof><box><Rx>t 
         <H-dash><l-arrow><Register><l-arrow> <x-(><x-)><box>(\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  <F-dash>\\a<star><loz><ellipse><ellipse>stat<box><acctof><box><Rx>t 
             <H-dash><l-arrow><Register><l-arrow> )[<x-)>)\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
